App. No.

IN THE SUPREME COURT OF THE UNITED STATES

AETNA, INC.,
AETNA LIFE INSURANCE COMPANY,
OPTUMHEALTH CARE SOLUTIONS, INC.,
Petitioners,
v.

SANDRA PETERS,
Respondent.

APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI

DIRECTED TO THE HONORABLE JOHN G. ROBERTS, JR.,
CHIEF JUSTICE OF THE UNITED STATES SUPREME COURT AND
CIRCUIT JUSTICE FOR THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Brian D. Boone
Counsel of Record
Michael R. Hoernlein
Brandon C.E. Springer
ALSTON & BIRD LLP
101 S. Tryon Street
Charlotte, NC 28280
(704) 444-1000
brian.boone@alston.com
Counsel for Petitioner
OptumHealth Care Solutions, Inc.

Earl B. Austin
Baker Botts L.L.P.
30 Rockefeller Plaza
New York, NY 10112
(212)408-2500
earl.austin@bakerbotts.corn
Counsel for Petitioners Aetna, Inc. and
Aetna Life Insurance Company

To THE HONORABLE JOHN G. ROBERTS, JR., AS CIRCUIT JUSTICE FOR THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT:
Under Supreme Court Rules 13.5, 22, and 30, Petitioners Aetna, Inc., Aetna
Life Insurance Company, and OptumHealth Care Solutions, Inc. request an
extension of 60 days to file their petitions for a writ of certiorari in Peters v. Aetna
Inc., No. 19-2085, 2 F.4th 199 (4th Cir. 2021) (attached as Appendix A). In support of
its application, Petitioners state the following:
1.

The U.S. Court of Appeals for the Fourth Circuit filed its opinion on June

22, 2021. The Fourth Circuit denied Petitioners' petition for panel rehearing or
rehearing en Banc on July 20, 2021. The Fourth Circuit's July 20, 2021 order is
attached as Appendix B. As it stands, Petitioners must file their certiorari petition
by October 18, 2021.
2.

In accordance with Supreme Court Rule 13.5, Petitioners have filed this

application at least ten days before the October 18, 2021 deadline.
3.

We have consulted with counsel for Respondent Peters, and Peters does

not oppose the requested extension.
4.

This Court will have jurisdiction over the certiorari petition under 28

U.S.C. ยง 1254.
5.

Petitioners request an extension so that they can have time to prepare

their respective petitions for a writ of certiorari. Given the press of business in other
cases and the substantial record below, Petitioners' counsel needs the additional time
to analyze the record and prepare the petitions.

2

Accordingly, Petitioners request an extension of the deadline for their
certiorari petitions up through and including December 17, 2021.

Respectfully submitted on October 8, 2021.

Brian D. Boone
Counsel of Record
Michael R. Hoernlein
Brandon C.E. Springer
ALSTON & BIRD LLP
101 S. Tryon Street
Charlotte, NC 28280
(704) 444-1000
brian.boone@alston.com

Earl B. Austin
Baker Botts L.L.P.
30 Rockefeller Plaza
New York, NY 10112
(212)408-2500
earl.austin@bakerbotts.com
Counsel for Petitioners Aetna, Inc. and
Aetna Life Insurance Company

Counsel for Petitioner
OptumHealth Care Solutions, Inc.

3

CE TIFICATE OF COMPLIANCE WITH TYPE-VOLUME
LIMIT, TYPEFACE REQUIREMENTS, AND
TYPE-STYLE REQUIREMENTS
1. This document complies with the form and content requirements of Supreme
Court Rule 22 because the original and two copies of the Application have been
filed with the Clerk.
2. This document complies with the form and content requirements of Supreme
Court Rule 33.2 because it has been presented double-spaced on 8.5- by 11-inch
paper and, excluding the parts of the document exempted by Supreme Court
Rule 33.1(d), contains 2 pages.
Respectfully submitted on October 8, 2021.

Brian D. Boone
Counsel of Record
ALSTON & BIRD LLP
101 S. Tryon Street, St. 4000
Charlotte, NC 28280
(704) 444-1000
brian.boone@alston.com

CE TIFICATE OF SERVICE
I certify that today I served this Application for Extension of Time to File
Petition for Writ of Certiorari by email and first class U.S. mail in accordance
with Supreme Court Rule 29.3 on the following:
D. Brian Huffard
Jason S. Cowart
Nell Z. Peyser
Zuckerman Spaeder LLP
485 Madison Avenue
10th Floor
New York, NY 10022
(212)704-4256
dbhuffard@zuckerman.com

Larry McDevitt
David M. Wilkerson
THE VAN WINKLE LAW FIRM
11 North Market Street
Asheville, NC 28801
(828)258-2991
lmcdevitt@vwlawfirm.com

Counsel for Respondent Sandra M. Peters

Earl B. Austin
Baker Botts L.L.P.
30 Rockefeller Plaza
New York, NY 10112
(212)408-2500
earl.austin@bakerbotts.com

E. Thomison Holman
HOLMAN LAW, PLLC
56 College Street, Suite 302
Asheville, NC 28801
(828)252-73181
tom@holmanlawwnc.com

Counsel for Petitioners Aetna, Inc. and Aetna Life Insurance Company

Respectfully submitted on October 8, 2021.

Brian D. Boone
Counsel of Record
ALSTON & BIRD LLP
101 S. Tryon Street, St. 4000
Charlotte, NC 28280
(704) 444-1000
brian.boone@alston.com

